Tennessee Valley Authority



       Office of the
    Inspector General




                   Semiannual Report
                         to Congress
                   October 1, 2004 ~ March 31, 2005
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and inspections.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse;
(2) violations of laws, rules, or
regulations; and (3) inefficiencies in
TVA programs and operations.

If you want to report any matter
involving TVA programs, operations,
or employees, you should call the
OIG Hotline or write the Inspector
General’s office at the address or
number listed on the back cover.
                                    Tennessee Valley Authority
                                   Office of the Inspector General



          Message From the Inspector General

         As reflected in this semiannual report to Congress, the OIG continues to better enable TVA to prepare
for expected changes in its business environment. TVA’s strategic plan has identified four key areas that are
essential to success in a more competitive market: (1) developing new price structures, services, and contract
terms that are better suited for a more competitive market; (2) addressing issues that affect TVA’s transmission
business, including how to interface with surrounding markets to ensure reliability and how to charge for
transmission services when distributors can choose other suppliers; (3) accelerating TVA’s debt reduction to
provide increased financial flexibility in a more dynamic, competitive market; and (4) maintaining and operating the
TVA power system so customers can count on having a safe and reliable power supply.

          These four key areas are impacted by the audits, investigations, and inspections conducted by the TVA
OIG. We are charged in the Inspector General Act to “provide leadership and coordination and recommend
policies for activities designed to promote economy, efficiency, and effectiveness . . . and to prevent and detect
fraud and abuse.” This semiannual report to Congress demonstrates a concentration of effort by the OIG to
identify areas where TVA can improve efficiency and better protect its operations from fraud and abuse.

          The nature of the work of the OIG is to naturally focus on aberrations. We focus our efforts based on
risks to the organization and we then look for vulnerabilities. Our semiannual reports to Congress therefore
appear to reflect a compendium of “problems.” What they do not fairly represent are all the many programs and
processes that are working well at TVA. Neither do our reports fully capture the cooperative spirit of TVA
management who year after year implement our recommendations because they truly want TVA to be better. In
this semiannual reporting period perhaps nothing exemplifies this more than the way in which Jacky Preslar,
General Manager of Fossil Fuel Supply, and his team implemented the first fraud risk assessment at TVA. While
the OIG introduced this process to TVA, Fossil Fuel Supply embraced it as their own and enthusiastically
identified fraud vulnerabilities and provided the necessary remediation.

         While I am immensely proud of the financial savings realized by TVA this reporting period because of the
hard work of our OIG staff, I am equally proud of the healthy professional relationship that exists between our
office and TVA management. The TVA Board continues to demonstrate an appreciation for the work of the OIG
which engenders this spirit of cooperation. I am grateful for the opportunity we all have to work together to build
a better TVA.




                                                                                                Richard W. Moore
                                                                                                Inspector General
                                                                                                   April 29, 2005
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      4

Special Feature                                                                                      8

Audits                                                                                              10

Investigations                                                                                      19

Inspections                                                                                         28

Legislation and Regulations                                                                         31




Appendices                                                                                          32


Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          33


Appendix 2 Audit Reports Issued                                                                     34


Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   37


Appendix 4 Audit Reports With Corrective Actions Pending                                            39


Appendix 5 Investigative Referrals and Prosecutive Results                                          42


Appendix 6 Unresolved Audit Reports                                                                 43




Highlights                                                                                          44




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, investigations, and inspections. In accordance with our mission, our reviews are
designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified nearly $35 million in
recoveries, fines/penalties, potential savings, questioned costs, or funds which could be
put to better use, as outlined in the chart below.



                                STATISTICAL HIGHLIGHTS
                  October 1, 2004 ~ March 31, 2005
                    Audit Reports Issued                              31
                    Questioned Costs                          $8,858,584
                    Funds Recovered/Disallowed                $9,269,386
                    Funds Put to Better Use                  $24,306,000
                    Funds Realized by TVA                     $7,886,000
                    Investigations Opened                             84
                    Investigations Closed                            103
                    Fines/Recoveries/Restitution/Savings      $1,798,264
                    Criminal Actions                                   7
                    Administrative Actions (No. of Subjects)          16
                    Inspections Completed                             14



We completed 31 audits during this reporting period which resulted in significant
questioned costs and the identification of areas for improvement. Highlights included
the identification of over $8.8 million in questioned costs and $24.3 million in funds
which could be put to better use from our contract audits and needed improvements in
the area of information technology (IT) security. We reviewed many internal controls and
found most were adequately designed to mitigate risks, but opportunities to improve
internal control effectiveness existed in several areas. In addition, we noted many
positives in TVA activities. For example, we found TVA’s Heavy Equipment Division and
Central Laboratories Services achieved their competitiveness goals. Also, TVA
management used information from our audits to recover or disallow about $9.3 million
and negotiated nearly $7.9 million in contract cost savings.




page 1                                                      October 1, 2004 ~ March 31, 2005
                                                             Executive Summary



The OIG, working with TVA management, kicked off a fraud risk assessment initiative
throughout TVA. These fraud risk assessments are intended to identify the likelihood
and significance of potential frauds, existing controls, and appropriate mitigation
actions. We intend for this to be an ongoing process to assist TVA in effectively
ensuring there are adequate antifraud controls across all TVA business units.

Investigative highlights include (1) recoveries, savings, and fines/penalties of nearly
$1.8 million; (2) workers’ compensation cases, resulting in removal of two claimants
from the long-term roles; and (3) TVA credit card abuse cases, including indictment of a
former TVA employee for personal purchases which exceeded $70,000. We also
participated through the Health Care Task Force for the Eastern District of Tennessee on
an investigation which during this reporting period was recognized by the National
Health Care Anti-Fraud Association for its Investigation of the Year Award. In addition,
we continued our activities to develop more proactive investigative initiatives through
actions such as data mining and by working with TVA management to resolve
allegations that do not warrant a full OIG investigation.

We completed 14 inspections which identified various                       Definitions
opportunities for improved program operations. These            Q u e s t i o n e d C o s t s - A cost that
                                                                is unnecessary, unreasonable,
reviews covered various operational areas, including            unsupported, or an alleged
dispersed power production program’s pricing and                violation of law, regulation,
                                                                contract, etc.
control structure and the risks associated with loss due        Unsupported Costs - A
                                                                questioned cost that is not
to coal vendor default.
                                                                supported by adequate
                                                                documentation.
                                                                F u n d s P u t t o B e t t e r U s e - Funds
                                                                that could be used more
                                                                efficiently by implementing
                                                                recommended actions.
                                                                D i s a l l o w e d C o s t s - A cost that
                                                                management agrees should not
                                                                be charged to TVA.




TVA Office of the Inspector General                                                         page 2
T VA P r o f i l e



TVA was created in 1933 to improve the quality of life in the Tennessee Valley region.
President Franklin Roosevelt asked Congress to create TVA as “a corporation clothed
              with the power of government but possessed of the flexibility and initiative
              of a private enterprise.” Today, TVA carries out its mission through the
              three key areas of energy, the environment, and economic development.
              TVA is completely self-financing through power sales and bond issues.
              TVA receives no taxpayer dollars.

              In the area of energy, TVA is the nation’s largest provider of public power.
              TVA’s power system includes 11 fossil plants, 29 hydroelectric dams,
3 nuclear plants, 6 combustion turbine plants, 1 pumped-storage facility, and
17,000 miles of transmission lines. TVA also produces energy from renewable
sources––sun, wind, and methane gas from waste. The TVA service area covers
80,000 square miles in the Southeastern United States, including most of Tennessee
and parts of Mississippi, Kentucky, Alabama, Georgia, North Carolina, and Virginia. By
providing wholesale power to 158 local power distributors, and by directly serving
62 large industries and government installations in the Valley, TVA supplies the energy
needs of 8.5 million people.

In the area of environment, TVA manages the Tennessee River and adjoining lands to
provide cleaner air and water. TVA operates the Tennessee River system––the nation’s
fifth largest river system––as one integrated system to provide multiple benefits,
including flood control, commercial navigation, recreation, and water quality and water
supply in the 41,000-square-mile watershed.

In economic development, TVA builds partnerships that foster economic prosperity for
the region. TVA delivers the reliable, affordable electric power that makes the Valley an
attractive place to start or expand a business. In addition, TVA works with Valley
communities to bring good jobs to the region and keep them here. TVA economic
development services include assistance in recruiting and retaining jobs, programs for
increasing productivity through capital investment, and specialized technical services
and advice.




page 3                                                      October 1, 2004 ~ March 31, 2005
                                       Office of the Inspector General



Office Authority

Created by the TVA Board of Directors during 1985, the TVA OIG became statutory
under the Inspector General (IG) Act Amendments of 1988. The authority to appoint
the TVA IG was transferred to the President in November 2000 by Public Law
No. 106–422.

The IG is responsible for conducting audits and investigations relating to TVA programs
and operations while keeping the TVA Board and Congress fully and currently informed
about problems and deficiencies. The TVA IG is independent of TVA management and
subject only to the general supervision of the TVA Board. The IG’s authority includes
conducting audits or investigations the IG deems necessary or desirable, issuing
subpoenas, administering oaths, and granting confidentiality to individuals who provide
information to the OIG.

Organization

The OIG’s primary location is in the TVA headquarters in Knoxville, Tennessee. To
obtain broader coverage throughout the Valley, the OIG also has an Inspections unit
located in Chattanooga, Tennessee, and one-person offices at the Browns Ferry
Nuclear Plant (BFN) in Alabama and in Mayfield, Kentucky. The OIG consists of two
primary components: (1) Audits and Inspections and (2) Investigative Operations.




TVA Office of the Inspector General                                                 page 4
Office of the Inspector General



AUDITS AND INSPECTIONS

             Audit Operations (AO) conducts and/or supervises comprehensive financial
             and performance audits of TVA programs and operations and makes
             recommendations to ensure that program objectives and operational
             functions are achieved effectively and efficiently. AO develops an annual
             audit plan to enable effective allocations of audit resources to issues,
             programs, operations, and activities that expose TVA to significant risks
             and/or vulnerabilities.

AO consists of three departments––Contract Audits, Financial/Operational Audits, and
IT Audits.

 Contract Audits has lead responsibility for contract compliance and preaward audits.

   In addition, this group performs reviews of TVA contracting processes and provides
   claims assistance and litigation support.

 Financial/Operational Audits has lead responsibility for (1) oversight of TVA’s financial

   statement audits performed by TVA’s external auditor; (2) reviews of TVA’s internal
   controls related to financial reporting, operational efficiency, and compliance with
   laws and regulations; and (3) operational reviews to assess the results and economy
   and efficiency of TVA programs.

 IT Audits has lead responsibility for audits relating to the security of TVA’s IT

   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.


AO refers possible fraud or other wrongdoing by contractors, employees, or others
identified during its audits to Investigative Operations for further review. As needed, AO
also provides data mining and other assistance to, or performs joint projects with, the
Inspections and Investigations units.




page 5                                                       October 1, 2004 ~ March 31, 2005
                                        Office of the Inspector General



The Inspections unit, which is staffed by auditors, was formed at the beginning of fiscal
year (FY) 2004. Inspections provides flexibility to conduct quick
hit policy and program evaluations to promote economy and
efficiency in the management and administration of TVA programs
and to prevent and detect fraud, waste, and abuse. In
accordance with the Quality Standards for Inspections, the
objectives of inspections include providing a source of factual and
analytical information, monitoring compliance, measuring
performance, assessing the efficiency and effectiveness of
operations, and/or conducting inquiries into allegations of fraud,
waste, abuse, and mismanagement.

INVESTIGATIVE OPERATIONS

Investigative Operations (IO) conducts and coordinates investigative activity related to
fraud, waste, and abuse in TVA programs and operations. The activities investigated
include possible wrongdoing by contractors, employees, economic development loan
recipients, and others. IO maintains liaisons with federal and state prosecutors and
reports to the Department of Justice whenever the OIG has reasonable grounds to
believe there has been a violation of federal criminal law. IO works with
other investigative agencies and organizations on special projects and
assignments, including interagency law enforcement task forces on
terrorism, the environment, and health care.




TVA Office of the Inspector General                                                 page 6
Office of the Inspector General




                                                       Inspector General




                            Legal Counsel




                                                                                                             Assistant Inspector
              Assistant Inspector
                                                                       Assistant Inspector                         General
                    General
                                                                             General                          (Administration &
                   (Audits &
                                                                         (Investigations)                       Government
                 Inspections)
                                                                                                                 Relations)

                            Contract Audits
                                                                                     Investigations                           Human
                              Manager
 Audit Quality                                           Inspections                    Manager                              Resource
  Manager                                                  Manager                                                           Manager
                               Financial/
                              Operational
                                                                                     Investigations
    Project                 Audits Manager                                                                                    Media
                                                                                        Manager
    Manager                                                                                                                  Relations
     (BFN 1                   Information
    Restart)                  Technology
                            Audits Manager
                                                        Contacts

Inspector General                                                          Project Manager (BFN 1 Restart)
Richard W. Moore . . . . . . . . . . .(865) 632-4120                       Thomas B. Johnson . . . . . . . . . .(865) 632-6256

Legal Counsel                                                              Contract Audits Manager
Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197                  David P. Wheeler . . . . . . . . . . . .(865) 632-4770

OIG Media Relations                                                        Financial/Operational Audits Manager
Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505                  Greg C. Jaynes . . . . . . . . . . . . . .(865) 632-7023

Assistant Inspector General (Audits &                                      Information Technology Audits Manager
Inspections)                                                               Jill M. Matthews . . . . . . . . . . . . .(865) 632-4730
Ben R. Wagner . . . . . . . . . . . . . .(865) 632-2272
                                                                           Inspections Manager
Assistant Inspector General (Investigations)                               R. Darryl Bryant . . . . . . . . . . . . .(423) 751-4415
Charles A. Kandt . . . . . . . . . . . .(865) 632-7720
                                                                           Investigations Manager
Assistant Inspector General (Administration                                Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584
& Government Relations)
Ronald Wise . . . . . . . . . . . . . . . .(865) 632-4752                  Investigations Manager
                                                                           C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956
Audit Quality Manager
Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-3891               Human Resource Manager
                                                                           Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718




        Hotline to report fraud, waste, and abuse: 1-800-323-3835
                      OIG website: http://oig.tva.gov

page 7                                                                               October 1, 2004 ~ March 31, 2005
                                                                   Special Feature



OIG and TVA Management Kick Off TVA-Wide Fraud Risk
Assessment Initiative

TVA has determined that adopting procedures consistent with certain provisions of the
Sarbanes-Oxley Act will better assure potential TVA investors and other key
stakeholders that TVA is providing complete, accurate, and timely information about
TVA. Under Sarbanes-Oxley and consistent with other guidance, management is
responsible for establishing, validating, and monitoring effective internal controls over
fraud. The elements of a strong program to detect and deter fraud include
assessments to identify fraud risks and controls which mitigate those risks, evaluations
of the effectiveness of those controls, and addressing residual risks.

The OIG, working with TVA management, has kicked off a fraud risk assessment
initiative throughout TVA. These fraud risk assessments are intended to identify (1) what
types of frauds can occur, (2) the likelihood and significance of fraud occurring, (3) the
controls in place to prevent fraud, and (4) actions needed to improve fraud prevention
controls. We intend for this to be an ongoing process to assist TVA in effectively
ensuring there are adequate antifraud controls across all TVA business units.

We recognized at the outset of this initiative that management support would be an
essential element for this program to be successful. Employees and managers may
hesitate to provide information because they may think it would reflect negatively on
them or the company, or they may not want attention focused on themselves. That has
not been our experience at TVA. We have experienced nothing but the strongest
support from TVA management in this undertaking, and we have been pleased with the
candor and information provided by TVA employees during the fraud risk assessment
process.

Fraud risk assessment activities during this reporting period included the following.

 In November, we sponsored the first training classes on conducting fraud risk

   assessments. Attendees included representatives from TVA’s Procurement, Fossil
   Fuel Supply, Chief Financial Officer, and General Counsel organizations. We used a



TVA Office of the Inspector General                                                   page 8
              Special Feature



                  contractor to help us develop this program and to initially demonstrate the
                  assessment process. We subsequently designated three special agents in our
                  Investigations unit to take the lead in facilitating these assessments, to be
                  supplemented by OIG subject matter experts as appropriate.

              We facilitated our first fraud risk assessment with the Fossil Fuel Supply organization.

                  The General Manager, Fossil Fuel Supply––the process owner––and his staff showed
                                                               a high level of commitment to utilizing this process to
                                                               identify potential risk areas and mitigation strategies.
                                                               As a result of this assessment, 16 fraud risk areas
                                                               were identified and 68 fraud schemes were
                                                               considered. Working collaboratively with
                                                               management, we identified a number of areas where
                                                               controls could be improved, and management
Pictured above from left to right: Mike Hendon, Richard Rea,
         Jacky Preslar, Jim Edgar, and Steve Baugh             developed remediation plans in these areas.

              We conducted a fraud risk assessment, sponsored by Procurement, with individuals

                  at BFN who are responsible for one of the major contracts involving the restart of
                  BFN Unit 1. Four fraud risk areas were identified and 39 potential fraud schemes
                  considered, and management is in the process of developing remediation plans.

              We identified approximately 25 other potential fraud risk assessment areas, and we

                  are meeting with the TVA management process owners to coordinate these reviews.




              page 9                                                                   October 1, 2004 ~ March 31, 2005
                                                                                   Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other
stakeholders. During this reporting period, we completed 31 audits which identified
over $8.8 million in questioned costs and $24.3 million in funds which could be put to
better use. Our audits included (1) preaward and contract compliance audits,
(2) financial-related audits, (3) IT audits, and (4) operational audits.

We reviewed many internal controls and found most were adequately designed to
mitigate risks, but opportunities to improve internal control effectiveness existed in
several areas. Management generally agreed with our findings and is taking action to
adopt appropriate corrective action. In addition, we noted many positives in TVA
activities.

Also, the OIG for the Small Business Administration (SBA) conducted a peer review of
our Audit operations in accordance with guidance issued by the President’s Council on
Integrity and Efficiency (PCIE). (All OIG audit organizations are required to have a peer
review conducted every three years.) The SBA OIG reported TVA’s OIG Audit
Operations’ system of quality control was designed in accordance with the PCIE’s
quality standards and was being complied with to provide the OIG with reasonable
assurance of material compliance with professional auditing standards in the conduct of
its audits.


PREAWARD CONTRACT AUDITS

To support TVA management in negotiating procurement actions, we completed four
preaward audits that identified $11.6 million in potential savings opportunities. During
this reporting period, TVA management successfully negotiated about $7.9 million in
savings as a result of audits issued during this and previous reporting periods.
Highlights of the preaward audits follow.




TVA Office of the Inspector General                                                 page 10
Audits



 We reviewed the cost proposals submitted by two contractors for providing hydro

   turbines and associated mechanical equipment for TVA’s hydro modernization
   program under two $70 million contracts. We determined one contractor’s proposal
   was overstated due to the addition of unsupported project management cost
   estimates and benefit costs. TVA management used our audit findings and
   negotiated terms that should save TVA about $7.9 million on the planned $70 million
   contract expenditure. The second contractor’s proposal was reasonable with the
   exception of escalation. We could not determine if escalation factors the contractor
   had used were reasonable because the contractor did not provide supporting
   documentation.

 We reviewed line-item prices proposed by a contractor for providing Radwaste

   Equipment and Services. We determined 65 percent of prices that had been
   proposed were not as good as prices the contractor bills other customers. We
   estimated TVA would save about $184,000 (based on TVA’s planned expenditures of
   $8 million over a three-year period) if it negotiated prices that were as good as the
   contractor’s best prices. TVA management is negotiating pricing terms with the
   contractor.

 We reviewed a contractor’s proposal for a one-year $865,000 contract to provide

   inspection services at TVA’s plant sites. This review was to determine if proposed
   labor markup rates were fairly stated. TVA management used information from our
   audit to negotiate more favorable compensation terms than originally proposed by
   the contractor. We estimated the more favorable terms would save TVA more than
   $23,000 of the planned $865,000 contract amount.

CONTRACT COMPLIANCE AUDITS

During this reporting period, we completed six contract compliance-related audits that
identified about $21.5 million in ineligible and unsupported costs. Management
generally agreed with our findings and has taken or plans to take corrective action.
Highlights of some of the more significant audits follow.




page 11                                                     October 1, 2004 ~ March 31, 2005
                                                                                 Audits



 We determined a contractor’s field overhead rate used on a project at BFN was an

   overstatement of the company’s actual costs because TVA is either (1) reimbursing
   the contractor directly for costs included in the overhead rate or (2) providing the
   items TVA is also being charged for in the contractor’s overhead. We estimated TVA
   would be billed over $18.9 million of unsupported overhead costs based on TVA’s
   current planned expenditures with the contractor. TVA management is negotiating a
   settlement with the contractor.

 We reviewed $236 million in costs billed by a contractor for providing selective

   catalytic reduction equipment and services. We determined the contractor had
   overbilled TVA $501,794 for costs that were either unsupported or not in accordance
   with the contract terms. Additionally, TVA could have (1) saved an estimated
   $374,000 if the contractor had taken advantage of payment discounts on material
   purchases and not billed TVA in advance for subcontractor costs and (2) potentially
   saved additional costs if the contract had included specific criteria for determining
   who was eligible to receive temporary living expense payments. The contractor
   subsequently agreed to credit TVA for the overbilled amounts. Management agreed
   with our recommendations and has taken or plans to take appropriate corrective
   action.

 We reviewed $13.8 million in payments TVA made to a contractor for providing

   engineering, materials, and installation support for automating TVA’s hydro system.
   We determined the contractor had (1) billed TVA $1.3 million for labor, travel,
   equipment, materials, other direct costs and fees that were either unsupported or
   not in accordance with the contract provisions; (2) not provided at least $125,000 of
   credits due TVA; (3) used the services of subcontractors that had not been approved
   by TVA’s contract manager; and (4) not maintained proper accounting and inventory
   records for computers, equipment, and tools that had been billed to TVA. TVA
   management is negotiating a settlement with the contractor.

 We determined TVA circumvented its process for hiring and reporting on personal

   services contractors by utilizing a former TVA employee under an existing contract.
   TVA management agreed and (1) revised its contract with the former employee and



TVA Office of the Inspector General                                                  page 12
Audits



   (2) informed us that all future needs for contractor support would be handled in
   accordance with policy.

 We reviewed $4.9 million in payments TVA made to a contractor for the installation

   of boiler pin studs at Paradise Fossil Plant. We determined the contractor overbilled
                     TVA $211,686, including (1) $185,800 in ineligible charges and
                     (2) $25,886 in unsupported charges for equipment, materials,
                     consumables, spare parts, freight, subcontractors, and labor. TVA
                     management agreed with our findings and plans to recover the
                     ineligible and unsupported costs.

FINANCIAL-RELATED REVIEWS

During the reporting period, we completed eight financial-related audits,
including audits of TVA’s external auditor’s (1) audit of TVA’s FY 2004
financial statements and (2) review of interim financial information for the first
quarter of FY 2005. Highlights of the audits follow.

 The independent auditor, PricewaterhouseCoopers LLP (PwC), issued an unqualified

   opinion on TVA’s FY 2004 financial statements on November 18, 2004. On that
   same day, PwC issued a report on its consideration of TVA’s internal control over
   financial reporting and results of tests of compliance with certain provisions of laws
   and regulations for the year which ended September 30, 2004. In meeting our
   statutory responsibility for the financial statement audit, we (1) assessed the external
   auditor’s methodology, evidence, and documentation; (2) performed supplemental
   tests of accounting records and compared the results to those of the external
   auditor; and (3) examined the independence and qualifications of the external
   auditor. We determined the financial statement audit was performed in accordance
   with Government Auditing Standards in all material respects.

 We found no instances where TVA’s external auditor’s reviews of TVA interim

   financial information for the first quarter of FY 2005 did not comply with Government
   Auditing Standards in all material respects, including required communications to
   appropriate parties.



page 13                                                      October 1, 2004 ~ March 31, 2005
                                                                                   Audits



 We assessed the adequacy of internal controls over short-term trading activities and

   decision processes, including documentation of trades, to ensure accurate financial
   reporting. We determined management control over short-term trading activities
   was adequate to ensure accurate financial reporting in all material respects.
   However, operational effectiveness of the control activities could be improved.
   Management agreed with our recommendations and has taken or plans to take
   appropriate corrective actions.

 We assessed whether internal controls over invoice processing and approval for

   payment were adequate to ensure payments are made accurately and timely. We
   determined that internal control design was adequate and key control activities were
   operating effectively to ensure payments were made accurately and timely.
   However, we found improvements could be made relating to (1) not exceeding
   approved contract limits, (2) updating policies and procedures, (3) monitoring system
   access authority, (4) monitoring for unauthorized invoice entry, (5) performing
   accounting reconciliations, and (6) receipt entry timing. Management agreed with
   our recommendations and has taken or plans to take appropriate corrective actions.

 We reviewed TVA’s internal controls over convenience check payment and

   processing. Our audit included the period January 1, 2003 to June 30, 2004.
   During this period, TVA had 4,509 convenience check transactions totaling
   $11.6 million. Specifically, we reviewed 2 key control objectives and 15 associated
   control activities designed to mitigate the risks related to potential (1) unauthorized
   use and (2) improper cost accounting. We determined the control design was
   adequate to mitigate the risks of unauthorized expenditures. However, the operating
   effectiveness of the controls could be improved. We also found that the control
   design and control operating effectiveness related to financial reporting could be
   improved. Management agreed with our recommendations and has taken or plans
   to take appropriate corrective actions.

 We reviewed TVA’s internal controls over nuclear fuel to determine whether tracking,

   documentation, and accounting controls are adequate. Our audit included the
   controls in place during the period October 1, 2003 to September 30, 2004. During



TVA Office of the Inspector General                                                  page 14
Audits



   this period, TVA (1) completed three reactor reloads and (2) recorded $131.9 million
   in spent fuel expense, $43 million in disposal costs, and $2.5 million in fuel-related
   inspection and handling costs. In summary, we determined the internal control
   design was adequate to mitigate the risk of nuclear fuel not being appropriately
   controlled and accounted for. We also found the key control activities related to
   nuclear fuel tracking, documentation, and accounting to be operating effectively.

IT AUDITS

          During this reporting period, we completed six audits in the IT environment.
          These reviews included (1) logical controls for servers hosting financially
          significant applications, (2) a vulnerability assessment of a standard image
          used to implement new servers, and (3) internal controls for TVA’s fuels,
          payroll, and work management systems. We found improvements were
          needed in five of the audits to address weaknesses in the following areas:

 Logical security controls for servers related to system vulnerabilities, operating

   system security, access management, and implementation of configuration
   standards.

 Internal controls in the payroll system related to process and internal control

   documentation; completeness, accuracy, confidentiality, and authorization of data,
   files, reports and production programs; approval of overtime payments; separation of
   duties in the disbursement process; background clearances for contract employees
   handling sensitive information; recording of payroll payments in suspense; and
   reconciliation of payroll payables.

 Internal controls in work management systems related to access management and

   processes for creation, review, and disabling of account codes.


TVA management agreed with our findings and either has implemented or is in the
process of implementing corrective actions. Some of the corrective actions to address
our findings are part of an ongoing agency-wide effort to improve security controls in
TVA’s existing IT infrastructure.




page 15                                                    October 1, 2004 ~ March 31, 2005
                                                                                 Audits



OPERATIONAL AUDITS
HEAVY EQUIPMENT DIVISION (HED) PRICING

HED is a self-supporting organization specializing in heavy equipment rental, services,
repair, and maintenance. At the request of the President and Chief Operating Officer,
we assessed the competitiveness of HED’s equipment rental and labor/maintenance
rates compared to outsourced alternatives. We determined HED achieved its total fleet
competitiveness goal, and HED’s labor/maintenance repair rates were generally lower
than outside vendors. We did find vendor average rates and individual rates that were
lower than HED for some subclasses of equipment. We also determined HED’s rate
reviews could be improved by (1) applying a weighted average based on current FY
revenue for each item, (2) using only current vendor rates, (3) including multiple vendor
rates in the equipment rate review, and (4) maintaining additional documentation to
support vendor rate information. Management agreed with our recommendations and
has taken or plans to take appropriate corrective actions.

CENTRAL LABORATORIES SERVICES (CLS) PRICING

CLS is a cost-recovery organization specializing in instrument calibration,
instrumentation, metallurgy, oil, coal, and environmental analysis. At the request of the
President and Chief Operating Officer, we assessed the competitiveness of CLS’s
test/service rates compared to outsourced alternatives. We determined CLS achieved
its total lab competitiveness goal for the sample selected; however, individual lab area
competitiveness varied. We did find vendor average rates and individual rates that were
lower than CLS for some tests/services. In response to our review, management is
considering (1) evaluating the costs/benefits of outsourcing certain lab tests/services
and (2) revising the CLS rate review methodology to not include Corporate and Fossil
overhead rates.

NEW EXECUTIVE ORIENTATION

TVA currently provides orientation to most newly hired employees through a centralized
and standardized hiring and orientation process called the New Employee Experience
(NEE). We assessed the effectiveness of orientation for new executives by (1) obtaining




TVA Office of the Inspector General                                                page 16
Audits



and reviewing documentation related to the NEE, (2) interviewing selected TVA
executives hired during the period of our review (September 25, 2000 to December 13,
2004), and (3) obtaining and reviewing research related to executive orientation best
practices.

After this review was initiated, Human Resources began developing a new process for
executive orientation. Our report included several additional recommendations, such as
providing specific guidance on sensitive issues and having periodic orientation sessions.
Management agreed with our recommendations and has taken or plans to take
appropriate corrective actions.


RIVER OPERATIONS’ COMPLIANCE WITH TVA’S PURCHASING CARD PROCEDURE

At the request of the Senior Vice President, River Operations (RO), we reviewed RO
compliance with the TVA VISA Purchasing Card procedure. We found that not all RO
cardholders and approving officials fully complied with TVA’s VISA purchasing card
                    procedure. We also specifically identified several noncompliances
                    that may have contributed to a former RO cardholder being able to
                    use TVA purchasing cards for personal purchases. Management
                    agreed with our recommendations and has taken or plans to take
                    appropriate corrective actions.




page 17                                                   October 1, 2004 ~ March 31, 2005
                                                                                 Audits



CONTROLS OVER DIRECT CHARGE MATERIALS FOR BFN UNIT 1

We assessed whether controls over the BFN Unit 1 Restart direct charge inventory are
in place and functioning properly. The scope of our review included controls over the
receiving, storage, and issue processes and the BFN
Unit 1 Restart materials inventory as of November 11,
2004. We found the control design was adequate to
mitigate the risks of (1) accepting materials that are
damaged, incomplete, or do not meet required
specifications; (2) not properly identifying, tracking, or
accounting for material receipts/disbursements; and
(3) not being able to locate warehoused items.

However, we found the operating effectiveness of warehousing controls needs
improvement. Specifically, materials were shelved in locations not identified by TVA’s
inventory tracking system. Failure to readily locate materials could affect project
timeliness or result in duplicate purchases. We also found that a significant amount of
quality assurance material was in inspection backlog status. Management has taken
appropriate corrective action.




TVA Office of the Inspector General                                                   page 18
Investigations



Summary of Representative Investigations

During the past six months, we closed 103 investigations based, in part, on allegations
and concerns received from ratepayers, TVA management and employees,
and OIG auditors. Our investigations, including task force projects, resulted in (1) nearly
$1.8 million in recoveries, projected savings, and fines/penalties; (2) three subjects
indicted; and (3) four subjects convicted.

Our investigative activities are designed to prevent and detect fraud and abuse. While
our investigations in the past have largely been reactive, we are implementing programs
to become more proactive. Our proactive efforts include (1) placing an additional
emphasis on testing for fraud during audits and having auditors make referrals to
Investigations, (2) devoting one employee to full-time data mining to look for anomalies
and fraud indicators in TVA data sets, (3) working with TVA management to conduct
fraud risk assessments, (4) assigning OIG special agents to be responsible for specific
TVA plant sites and develop relationships with the people there, and (5) developing an
Intelligence Unit to look for trends or patterns which might indicate fraud. We also are
working with TVA management to ensure that allegations which do not rise to the level
of warranting an OIG investigation are appropriately considered and acted upon.

Below we discuss illustrative cases in several major areas, including workers’
compensation, health care, credit cards, and contracts. TVA expends significant
amounts of money in each of these areas, and our efforts are designed both to prevent
fraud and to find and prosecute fraud which may have occurred. We also discuss
below our program for handling allegations of employee misconduct.


WORKERS’ COMPENSATION

TVA employees, like other federal workers, are covered by the Federal Employees’
Compensation Act (FECA). Under FECA, workers injured on the job receive medical
benefits and tax-free wage loss benefits for life equal to 75 percent of salary if they have
dependents and 66-2/3 percent if they do not. TVA employees, unlike other federal




page 19                                                     October 1, 2004 ~ March 31, 2005
                                                                      Investigations



employees, can also receive full retirement and social security benefits in addition to
FECA benefits.

TVA spent over $61 million on workers’ compensation benefits during FY 2004 alone.
Because of the amount of money involved, including the amount of benefits an
individual can receive, we have developed a program to identify fraud and other
overcharges in this area. Anyone convicted of fraud in connection
with a workers’ compensation claim is no longer eligible to receive
workers’ compensation benefits. Because workers’ compensation
recipients otherwise would receive benefits for the rest of their lives,
convictions generally lead to significant long-term avoided costs for
TVA. In addition to fraud investigations, we also work with the
Department of Labor (DOL) OIG and Office of Workers’
Compensation Programs (OWCP) to identify erroneous payments or
individuals who are receiving benefits to which they are not entitled. Since January 1,
2000, we have closed 60 workers’ compensation investigations. Those investigations
resulted in five convictions, one pre-trial diversion, $489,502 in recovered costs, and
$6,411,939 in estimated long-term avoided costs.

Our efforts during this reporting period resulted in an estimated long-term savings to
TVA of over $1 million. Results during this period included the following.

 A federal court jury in the Western District of Kentucky found a former TVA employee

   receiving workers’ compensation benefits guilty on four counts of filing false
   statements with OWCP to obtain benefits. The former employee reported on
   statements filed with OWCP that he was not employed or self-employed; however,
   the employee was self-employed in an auto salvage and used car business. Based
   on the conviction, the defendant forfeited his entitlement to continued benefits,
   resulting in an estimated long-term savings to TVA of roughly $625,896.

 We found a workers’ compensation recipient correctly reported his return to work,

   but OWCP inadvertently failed to adjust his benefits. After we brought this matter to
   OWCP’s attention, they terminated the recipient’s benefits, resulting in an estimated



TVA Office of the Inspector General                                                 page 20
                  Investigations



                      long-term savings of $464,632 for TVA. We identified this case through a computer
                      match of TVA workers’ compensation recipients with wages reported to the
                      Tennessee DOL and Workforce Development.

                   A joint investigation with the DOL OIG revealed a claimant actually owned an

                      automotive repair business, but he concealed his involvement in the business
                      through his wife and ultimately another person. Although prosecution was declined,
                      OWCP forfeited the claimant’s benefits from 1998-2004 based on his failure to report
                      and/or underreporting his earnings and activities as the owner/operator of an
                      automotive repair business. The forfeited benefits totaled $168,779. We also have
                      asked OWCP to consider re-rating the claimant based on his operation of the
                      business.

                  HEALTH CARE

                  Health care fraud has been identified as a major problem across the country, including
                  in government programs. TVA operates a self-insured health care plan, and during
                  FY 2004 spent roughly $140 million on health care costs. We have found, however,
                  that fraud by individual providers is usually spread out among many insurance
                  programs, and TVA by itself often does not suffer enough damages to warrant a
                  criminal prosecution. Accordingly, we participate on the Health Care Task Force for the
                  Eastern District of Tennessee, and we seek other opportunities for joint investigations to
                  establish a large enough fraud to warrant prosecution.

                                                                    The usefulness of these joint efforts was recognized by
                                                                    a prestigious award given during this reporting period.
                                                                    The National Health Care Anti-Fraud Association
                                                                    selected an investigation of an orthopedic surgeon by
                                                                    the Health Care Task Force for the Eastern District of
                                                                    Tennessee for their Investigation of the Year Award.

  Health Care Task Force for the Eastern District of Tennessee      James F. Farr, OIG Investigative Project Manager,
Pictured above (from left to right) Special Agent Tim Burke, FBI;
 Inspector Bob Smith, Postal Inspection; Special Agent Jenny        worked with the task force and accepted the award
    Trussell, HHS/OIG; Special Agent Norman Tidwell, TBI;
       James Farr, TVA OIG; AUSA Cindy Davidson; and
                Joan Syler, BCBS of Tennessee
                                                                    with other team members. Among other things, the




                  page 21                                                                    October 1, 2004 ~ March 31, 2005
                                                                      Investigations



surgeon submitted questionable claims to the TVA Workers’ Compensation program.
At trial, the surgeon was convicted on 95 counts of health care fraud. He was
sentenced to 41 months in prison, 3 years’ supervised release, and ordered to make
restitution in excess of $3 million to the various health care programs, including TVA.
This recognition of the task force and Mr. Farr was well deserved.

Our results during this reporting period included the following.

 We previously reported on an investigation by the Health Care Task Force for the

   Eastern District of Tennessee into a scheme to divert prescription drugs. During this
   period, the two final defendants pled guilty to participating in a conspiracy to illegally
   distribute prescription drugs, bringing the total number of convictions to seven.
   Sentences for conviction in this case included 28 months in prison for the physician.

 On November 8, 2004, a seven-count indictment was returned in Alabama state

   court against a former TVA employee for acquiring or obtaining possession of a
   controlled substance by misrepresentation, fraud, forgery, deception, or subterfuge.
   Our investigation found that on average the former employee obtained 13 to 18 pills
   a day from 6 pharmacies with prescriptions written by 9 doctors. TVA paid this
   individual’s health care costs through the workers’ compensation program, and the
   drug costs, which exceeded $12,000, through the TVA prescription drug plan.

CREDIT CARDS

Credit card fraud is generally increasing nationwide as more and more transactions are
done via cards and electronically. TVA credit card expenditures during FY 2004
exceeded $90 million. While we have developed data mining programs to periodically
review TVA credit card transactions to look for anomalies, the best defense against
fraud remains with the cardholder and approving official, who are responsible for
reviewing each month’s charges and ensuring they are legitimate. Results during this
reporting period included the following.




TVA Office of the Inspector General                                                   page 22
Investigations



 A former TVA River Operations employee was charged in the Eastern District of

  Tennessee with theft and mail fraud in an 11-count federal indictment. The
  indictment charged the former employee used TVA credit cards to purchase items
  for personal use, including color televisions, storage sheds, and other items totaling
  over $70,000. A breakdown in internal controls in that case allowed the alleged
  misuse to continue for several months before it was detected.

 A former TVA Fossil Power Group employee was charged in the state of Alabama

  with the fraudulent use of a TVA credit card. The former employee was charged
  with using a TVA credit card subsequent to his termination from TVA to obtain over
  $4,000 in services.

 Our investigation of a credit card charge to a cosmetic company showed a TVA

  manager purchased several items in violation of ethics regulations. The manager
  purchased the items to give his employees. He purchased them from his wife, a
  consultant for the cosmetics company, who received a commission on the sale. The
  TVA manager was counseled and required to reimburse TVA for the amount of the
  charges.

 We previously reported on a former Transmission/Power Supply foreman who was

  indicted by a federal grand jury for using a Wright Express credit card to steal from
  TVA. Our investigation determined the former employee accepted cash from
  individuals in exchange for using a TVA credit card to pay for gasoline for their
  private vehicles. Typically, the individuals paid the former employee half the value of
  the fuel they received. During this reporting period, the former employee pled guilty
  to unauthorized use of an access device and was sentenced to six months in prison,
  six months in a half-way house, and three years’ probation. He also was ordered to
  pay $45,452 in restitution to TVA.

 We previously reported an employee at BFN was indicted for misusing his TVA

  purchasing card by accepting kickbacks to purchase overpriced janitorial supplies in
  quantities far in excess of what TVA needed. In return, the former employee
  received about $14,500 in store gift cards and merchandise. The loss to TVA is




page 23                                                   October 1, 2004 ~ March 31, 2005
                                                                    Investigations



   estimated to be between $200,000 and $400,000. During this period, we reported
   our concerns to TVA management about the failure to adequately review the
   purchasing card transactions. Management took appropriate corrective action.

CONTRACTS

We identified several possible fraud schemes involving TVA contracts through our
proactive methods as discussed at the beginning of this section. We closed several
investigations into possible contract fraud where there was insufficient evidence to
show actual fraud, and several others are still ongoing. Results from completed
contract investigations included the following.

 Our combined investigation/audit showed a transportation company overbilled TVA

   as the result of using a weighing method that contained a bias and failing to return
   residual coal to TVA. TVA negotiated a settlement with the transportation company
   under which the company offset damages to their equipment caused by TVA by
   $460,000.

 We participated with other agencies in a civil False Claims Act action brought by the

   Department of Justice. That case involved making false claims and statements
   regarding the testing of compressed gas cylinders, including some provided to TVA.
   The case was settled and the lawsuit dismissed. Although no final determination on
   allocation has been made, we estimate TVA will recover over $350,000.

 Our investigation of a contractor who installed heat pumps under the energy right®

   program showed the contractor submitted loan documentation containing forged
   signatures. The contractor pled guilty to offering a false instrument. He was sen-
   tenced to 12 months’ confinement (suspended) and placed on probation
   for 24 months. His sentence also contained a special
   condition that prevented him from doing business directly or indirectly
   with TVA for two years.




TVA Office of the Inspector General                                               page 24
Investigations



EMPLOYEE CONDUCT

We evaluate each allegation we receive to determine if it meets the threshold to warrant
an investigation. We generally investigate potentially criminal matters or allegations
involving senior TVA managers. In other cases, we often decide it would be more
appropriate to refer the matter to the Designated Agency Ethics Official or an
appropriate level of TVA management for corrective action. Factors we consider in
deciding whether to refer a matter to management include the potential monetary
amount involved, the risk to TVA, the nature of corrective action required if
substantiated, and the likelihood that management can resolve the matter. We have
found management to be responsive to referred issues, and we track each referral to
ensure appropriate action is taken. During this reporting period, management took
action in response to two investigations of alleged employee misconduct. Management
also pursued and took corrective action in numerous referrals. Our investigations and
examples of management referrals are outlined below.

 Management took administrative action in response to our investigation showing

   time and travel abuses by a Transmission Line Construction crew. In response to
   our findings, management took action to ensure future compliance, including
   drafting administrative guidelines covering time reporting, travel claims, vehicle use,
   and cellular phone use. These guidelines will be provided to all Transmission Line
   employees, who also will be required to complete a training module at least once
   every two years. Management further gave the involved employees written
   warnings, made them reimburse TVA for ineligible expenses they claimed,
   reassigned the crew members, and removed the supervisor from supervisory duties.
   One employee also was suspended for 30 days for misusing a TVA vehicle.

 Our investigation found a TVA manager used vulgar language and/or profanity in the

   workplace, and that he forwarded a sexual e-mail to several other TVA employees in
   violation of TVA policy. Management suspended and transferred the employee.




page 25                                                    October 1, 2004 ~ March 31, 2005
                                                                     Investigations



 We received an allegation that a TVA vehicle was driven in an unsafe manner.

   Management identified the driver and counseled him about the responsibilities of
   driving a government vehicle and representing TVA in a positive manner.
   Management also presented this same message at a safety meeting.

 A contractor’s expense records indicated several TVA employees may have

   accepted meals whose costs exceeded ethics guidelines. As a result of our referral,
   the Designated Agency Ethics Official made a presentation to relevant management
   of TVA and the contractor, and the employees were required to reimburse the
   contractor for the cost of the meals.

 We confirmed an allegation that a TVA employee had been arrested. Management

   issued the employee a warning letter for not reporting the arrest and provided
   additional training to employees at several fossil plants about TVA’s disciplinary
   guidelines and the requirement to report arrests.

 Management confirmed an allegation that a TVA employee was conducting a

   personal business on TVA time and issued the employee a warning letter.


INTERAGENCY SUPPORT

We recognize the importance of sharing investigative resources and information with
other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this period, we continued to provide
investigative resources to the Health Care Fraud Task Force and Environmental Crimes
Joint Task Force, both sponsored by the U.S. Attorney for the Eastern District of
Tennessee, and the Joint Terrorism Task Force, led by the Federal Bureau of
Investigation, Knoxville Field Division.

In addition, we provided investigative support to the Appalachian Regional Commission
IG, who requested our assistance with an investigation of potential grant fraud involving
a non-profit organization located in Eastern Kentucky. We conducted the investigation




TVA Office of the Inspector General                                                 page 26
Investigations



and confirmed the grant funds were not disbursed in accordance with the grant
agreement. However, prosecution was declined.



                                                                                         Administrative and Disciplinary Actions
                                                                                                        T o t al = 3 9


                                                                                                                          O ra l / W ri t t e n
                                                                                                                           W a rn i n g s               Su s p e n s i o n s /
                                                                                                                                 26%                     D emo t i o n s /
                                                                            R e e m pl o y m e n t
                                                                                                                                                          T ra n s f e rs
                                                                                  F l ag g ed
                                                                                                                                                              18%
                                                                                       5%



                                                                                                                                                            T e rm i n a t i o n s
                                                                                                                                                                  2%
                                                                                                   C o u n s el i n g /
                                                                                                   Man ag emen t
                                                                                                   T e c h n i qu e s
                                                                                                         49%




                                          Closed Cases by Area
                                               T o t al = 1 0 3

                                                                 T ra n s m i s s i o n /
                                                H u man                Po w e r
                                              R e s o u rc e s         Su p p l y
             A d m i n i s t ra t i o n
                                                    8%                    7%
                     17%                                                               F o s s i l Po w e r
                                                                                            13.5%


                                                                                       T V A N u cl ear
              O t h er                                                                     13.5%
              31 %                                      R i v e r Sy s t e m
                                                        O p e ra t i o n s &
                                                        E n v i ro n m e n t
                                                                 10%




                                                                                                                 Hotline Concerns Reported
                                                                                                                    to OIG Investigations
                                                                                                                          T o t al = 5 9

                                                                                                                                                                F o rm e r T V A /
                                                                                                                    An o n y m o u s
                                                                                                                                                                   C o n t ra c t
                                                                                                                         31%
                                                                                                                                                                 E m pl o y e e s
                                                                                  O t h er                                                                             8%
                                                                                   3%




                                                                                       T V A / C o n t ra c t                                          G e n e ra l P u b l i c
                                                                                         E m pl o y e e s                                                      29%
                                                                                               29%




page 27                                                                                                                                           October 1, 2004 ~ March 31, 2005
                                                                         Inspections



Summary of Representative Inspections

Inspections may be initiated from various sources including (1) annual project planning,
(2) management requests, (3) audit/investigative referrals, and (4) spin-off reviews
resulting from an ongoing inspection. During this reporting period, we completed
14 inspections which identified various opportunities for TVA to improve program
operations. Highlights of the inspections follow.


FOLLOW-UP REVIEW OF TVA’S NON-NUCLEAR PHYSICAL SECURITY

On September 25, 2003, the OIG and a consultant assessed the adequacy of the
methodology TVA used to determine physical security needs at non-nuclear facilities.
We performed a follow-up review to evaluate TVA’s non-nuclear security actions related
to:

 Implementation of recommendations from the previously issued OIG report;

 Completion of planned physical security countermeasures at selected critical

      facilities;

 Monitoring current threats; and

 Complying with directives, laws, and regulations pertaining to security.


In summary, we found (1) TVA has taken actions to fully address two of the nine
recommendations from the previous OIG report, (2) most countermeasures have been
completed, (3) TVA currently monitors threats but does not conduct historical trending
or have a policy to define when and to whom threat information is communicated, and
(4) TVA continues to monitor and take actions to ensure compliance with directives,
laws, and regulations pertaining to physical security. We recommended TVA (1) take
actions to fully address the seven remaining recommendations from the previously
issued OIG report; (2) conduct historical trending of TVA, industry, and general threat
data to identify developing patterns; and (3) develop a policy to define when and to




TVA Office of the Inspector General                                                    page 28
Inspections



whom threat information is communicated. TVA management agreed with our findings
and will provide an action plan to address the recommendations.


KNOXVILLE EAST TOWER SALE PROCESS

While TVA’s Knoxville corporate headquarters are located in both the East Tower and
West Tower, TVA has attempted to sell the smaller East Tower for over a year. As part
of the TVA office space optimization program, Facilities Management began marketing
the East Tower for sale once it was determined that all Knoxville employees could be
housed in the West Tower.

We performed a limited scope review of TVA’s planned sale of the East Tower. Our
objective was to review the process used by TVA to (1) market the East Tower to
identify potential buyers, (2) determine the fair market value, and (3) notify and prequalify
potential bidders.

Our review identified some areas related to the financial analysis, negotiation, and
option terms of the sale of the East Tower which TVA may want to consider in future
sales.


TVA’S DISPERSED POWER PRODUCTION PROGRAM

We determined TVA’s dispersed power production program’s pricing and control
structure were effective in recovering TVA’s cost and ensuring regulatory compliance.
However, to strengthen controls over program participation, we suggested TVA include
language in program guidelines that would allow TVA’s auditors to verify participants’
statements regarding compliance. Management agreed with our suggestion.




page 29                                                     October 1, 2004 ~ March 31, 2005
                                                                       Inspections



COAL VENDOR SUPPLY RISK

We determined TVA could reduce the risk of loss due to coal vendor default by
developing additional inspection functions, implementing processes and
procedures to determine if and when contract performance enhancements
should be required, and periodically monitoring changes in TVA’s financial
exposure. TVA management agreed with our findings.


CONCERNS RESOLUTION PROGRAM - BFN UNIT 1 RESTART - FOLLOW-UP

We assessed the willingness of the BFN Unit 1 Restart contractors to report nuclear
safety and quality issues by interviewing a sample of contractors and comparing the
results to our previous survey which was performed in May 2004. Our survey results
indicated no significant change in the willingness of the BFN Unit 1 Restart contractors
to report nuclear safety and quality issues through some avenue. These contractors,
generally, have confidence in their Employee Concerns Programs or the Concerns
Resolution Program. The survey responses also compared favorably with the
responses from our previous assessment of TVA Nuclear as a whole.




TVA Office of the Inspector General                                              page 30
Legislation and Regulations



          We continued to follow legislative areas of interest pertaining to the IG
          community and TVA. The TVA IG, Richard W. Moore, serves on the
          Legislation Committee for the PCIE, and we worked with the PCIE to
          provide comments on legislation involving the IG community. We believe
          the pros and cons of proposed legislation involving the IG community and
          TVA are being fully explored, and we look forward to working with both
          TVA and Congress in these matters.




page 31                                                 October 1, 2004 ~ March 31, 2005
     APPENDICES




TVA Office of the Inspector General   page 32
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     31


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                          8-30


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies          8-30


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                             8-30


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                    Appendix 6


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 33                                                                      October 1, 2004 ~ March 31, 2005
                                                                                  Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                  QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                        COSTS       COSTS     BETTER USE

CONTRACT

2004-017C-02
10/29/04         Voith Siemens Hydro Power
                 Generation, Inc. - Personal
                 Services Contract

2004-061C
12/06/04         GE Hydro Power, Inc.                                              $11,447,000

2004-005C
12/09/04         Alstom Power, Inc., Environmental
                 Control Systems                         $875,794      $454,652

2004-066C
12/13/04         Duratek, Inc.                                                        184,000

2004-062C
12/16/04         Intech, Inc. - Labor Markups                                          23,000

2004-065C
12/17/04         Voith Siemens Hydro Power
                 Generation, Inc.

2004-017C-01
01/04/05         Voith Siemens Hydro Power
                 Generation, Inc.                        1,471,104       37,834

2004-012C-01
01/25/05         Stone & Webster Construction, Inc. -
                 Overhead Rate                           6,300,000    6,300,000      8,500,000

2004-044C
03/14/05         McCartin McAuliffe Mechanical
                 Contractors, Inc.                        211,686        25,886

2005-029C
03/31/05         Stone & Webster Construction, Inc. -
                 BFN Unit 1 Restart - Additional
                 Overhead Costs                                                      4,152,000




TVA Office of the Inspector General                                                       page 34
Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                 QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                       COSTS       COSTS     BETTER USE

F I NA N C I A L
2004-034F
10/05/04       Controls for Accounts
               Payable Invoice Processing and
               Approval for Payment

2004-028F
10/22/04       Controls Over Short-Term
               Trading Activities

2004-042F
11/24/04       Audit of PwC’s Audit of TVA’s
               FY 2004 Financial Statements

2005-010F
12/02/04       IG Agreed-Upon Procedures on
               Intragovernmental Activity and
               Balances

2004-051F
01/24/05       Controls Over Convenience Check
               Payment and Processing

2005-018F
02/11/05       Audit of PwC’s Review of TVA 2005
               Financial Information

2004-056F
02/18/05       Controls Over the Extension of Credit
               to Nonpower External Business
               Customers

2004-063F
03/24/05       Controls Over Nuclear Fuel Inventory


INFORMATION TECHNOLOGY
2004-047T
10/26/04       Controls Over Short Code Creation in
               the Enterprise Maintenance Planning
               and Control System

2004-060T
11/19/04       IT Security Review of New Servers for
               Human Resource and Payroll
               Applications

2005-001T
11/19/04       Vulnerability Assessment on Solaris
               Standard Image

2003-056T-01
11/22/04       Pre-Implementation Review of TVA’s
               New Fuelworx Application Follow-Up




page 35                                                           October 1, 2004 ~ March 31, 2005
                                                                                                 Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                    QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                          COSTS       COSTS     BETTER USE

INFORMATION TECHNOLOGY (continued)
2004-059T
11/24/04            Pre-Implementation Review of Security
                    of New Servers for IBS, Fixed
                    Assets, and BOSS Applications

2004-016T-01
12/07/04            Payroll System Controls

2004-064T
03/22/05            Management Controls Over
                    Implementation and/or Development
                    of IT Systems

PERFORMANCE
2004-053F
12/20/04            Heavy Equipment Division Pricing

2004-055F
01/24/05            River Operations Compliance
                    With Purchasing Card Procedures

2005-002F
02/11/05            Controls Over BFN Unit 1 Direct
                    Charge Inventory

2004-054F
03/03/05            Central Lab Services Pricing

2005-011F
03/21/05            New Executive Orientation

2005-020F
03/31/05            Survey of TVA’s Clean Air Program


TOTAL               31                                   $8,858,584             $6,818,372          $24,306,000*


* This figure includes funds identified in preaward audits of proposals for contracts that may not be awarded.




TVA Office of the Inspector General                                                                              page 36
Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                         QUESTIONED COSTS
                                                                 NUMBER                TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period                3                  $736,417             $103,034

B.   Which were issued during the reporting period                   4                $8,858,584           $6,818,372

Subtotals of A and B                                                 7*             $9,595,001           $6,921,406

C.   For which a management decision was made during
     the reporting period                                            6**              $7,668,117           $6,868,869

     (i) Dollar value of disallowed costs                            6                $7,586,149           $6,792,647

     (ii) Dollar value of costs not disallowed                       2                   $81,968              $76,222

D.   For which no management decision has been made by
     the end of the reporting period                                 2                $1,926,884              $52,537

E.   For which no management decision was made within
     six months of issuance                                          1                  $455,780              $14,703


* The total number of reports (A+B) differs from the sum of C and D when the same reports contain recommendations
  with and without management decisions.

** The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs disallowed
   and not disallowed by management.




page 37                                                                       October 1, 2004 ~ March 31, 2005
                                                                                                Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                                             NUMBER              DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                            0                             $0

B.   Which were issued during the reporting period                               5                  $24,306,000

Subtotals of A and B                                                             5                 $24,306,000

C.   For which a management decision was made during
     the reporting period                                                        4*                 $24,122,000

     (i) Dollar value of costs agreed to by management                           4                  $20,181,375

     (ii) Dollar value of costs not agreed to by management                      1                    $3,940,625

D.   For which no management decision has been made by
     the end of the reporting period                                             1                      $184,000

E.   For which no management decision was made within
     six months of issuance                                                      0                             $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs disallowed
  and not disallowed by management.




TVA Office of the Inspector General                                                                          page 38
Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions on recommendations in four contract compliance audits, three operational audits, three financial
audits, and nine IT audits have not yet been fully implemented; however, management is working toward implementation
in each case.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION




2001-074T                Application Review of Pegasys
01/07/02                 This report contained recommendations regarding facility access control. Funding has been
                         approved for addressing the recommendations. TVA is now evaluating system upgrade/
                         replacement options.


2002-025T                Security of Windows 2000/Windows XP
08/07/02                 This report contained recommendations to strengthen environmental and logical controls of
                         TVA’s implementation of Windows 2000 and Windows XP. TVA management plans to complete
                         final action by May 2005.


2003-004C                A & G Tree Service, Inc.
03/30/04                 This report included recommendations to (1) recover unsupported costs and (2) require the
                         contractor to compensate its employees for underpaid wages. TVA management has issued a
                         Contracting Officer’s decision requiring repayment of the unsupported costs. Also, TVA is
                         reviewing prevailing wage rates for right-of-way clearing contractors and plans to have this
                         completed by April 2005.


2003-015F                Review of Completed Plant Retirements
07/28/03                 This report contained recommendations to correct completed plant retirement inaccuracies,
                         improve accounting for completed plant retirements, and strengthen management’s controls
                         over retirements processing. TVA management agreed to implement most of our
                         recommendations and expects to complete final action by July 2005.


2003-024F                Review of TVA’s Accounts Receivable and the Allowance for Doubtful Accounts
11/18/03                 This report contained recommendations to (1) develop, document, and implement guidelines for
                         estimating the allowance for doubtful accounts; (2) ensure reconciliation of the general ledger
                         and subsidiary accounts include documentation of corrections and adjustments made during
                         power and nonpower reconciliations and management review and approval of all nonpower
                         adjusting journal entries; (3) make modifications to the write-off process to ensure invoices are
                         written off in a timely manner; (4) develop and implement procedures to track written off
                         accounts for future collection efforts or business decisions; (5) ensure accounts are written off in
                         accordance with policy; and (6) review and update Accounting Procedure 25 to clarify the
                         criteria for referring past due customers to OGC. TVA management agreed to implement our
                         recommendations and has transitioned the responsibilities to a new group. Processes and
                         procedures will be evaluated and updated in FY 2005, and a new system is planned.


2003-036C-01             Diamond Power-Cost Compliance
06/21/04                 This report contained recommendations that TVA Procurement recover an estimated $238,000
                         overbilled by Diamond Power and require future adjustments in the contract’s parts prices to
                         comply with the contract’s price change provisions. Subsequently, TVA management working
                         with Diamond Power and the OIG determined the actual overbilled amount due to the
                         contractor’s noncompliance with the contract’s price change provisions was $137,588. TVA
                         plans to recover this amount from the contractor.




page 39                                                                          October 1, 2004 ~ March 31, 2005
                                                                                            Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION




2003-036C-02        Diamond Power-Cost Compliance
06/04/04            This report contained recommendations that TVA Procurement execute formal signed contracts
                    that document agreed-upon terms and conditions and specific pricing criteria. TVA
                    management has assembled the contract and is working with the contractor to clarify the
                    contract’s pricing terms.


2003-040T           Nuclear Plant IT Security
03/30/04            This report included recommendations to strengthen logical and physical controls at a nuclear
                    generation facility. TVA management is implementing planned remediation actions that are
                    expected to be completed by July 2005.


2003-045C           Three Rivers Contracting
12/02/03            This report included a recommendation to require the contractor to (1) establish appropriate
                    documentation and approval processes and (2) compensate its employees for underpaid
                    wages. TVA management has required the contractor to implement documentation standards.
                    Also, TVA is reviewing prevailing wage rates for right-of-way clearing contractors and plans to
                    have this completed by April 2005.


2003-053F-01        Controls for Generation Data in Operations Data Store System and Web
06/03/04            Based Data Entry Page
                    This report included recommendations to strengthen controls over generation data in the
                    system. TVA management expects to issue a new policy addressing generation data require-
                    ments and each organization’s responsibilities by May 2005. Changes to organizations’ policies
                    and procedures and necessary system modifications are expected to be complete by
                    September 2005.


2003-053F-02        Operations Data Store (ODS) Logical Security Controls
06/03/04            This report included recommendations that TVA management address suggested remediation
                    actions to improve ODS security that are expected to be complete by May 2005.


2003-054T           Hydro Plant IT Security
11/13/03            This report included recommendations to strengthen logical, physical, and management
                    controls over IT assets at a hydroelectric facility. TVA management is implementing planned
                    remediation actions and has established a Security Project to address remaining issues with
                    completion targeted for December 2006.

2003-056T           Pre-Implementation Review of TVA’s New Fuelworx Application
03/18/04            This report included a recommendation to strengthen user access controls. The
                    recommendation will be addressed as part of a TVA-wide effort that is expected to be complete
                    in December 2006.




TVA Office of the Inspector General                                                                       page 40
Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION




2003-067P      TVA’s Compliance with the National Energy Conservation Policy Act
02/02/04       This report included recommendations to continue to evaluate opportunities to reduce energy
               consumption including (1) promoting sustainable building design when appropriate and
               (2) determining whether TVA can implement energy reduction requirements in one lease. Due to
               organizational and functional changes and process and peer review evaluations, the Internal
               Energy Efficiency process has been delayed. An estimation of implementation is not available at
               this time. The occupancy test project, IS computer software initiative, energy campaign to
               reduce energy use, and efficient building energy control settings for the Chattanooga Office
               Complex are all underway. TVA included model lease provisions on two facilities in February
               2005.

2004-004T      Operations Centers IT Security
07/28/04       This report included recommendations that TVA management address suggested remediation
               actions to improve the security for the operations centers’ IT infrastructure. TVA management is
               implementing planned remediation actions that are expected to be completed by December
               2006.

2004-006F      Public Power Institute
07/13/04       This report included a recommendation that TVA develop improved program performance
               measures. TVA plans to complete this by September 2005.

2004-007T      Fossil Plant DCS IT Security
01/26/04       This report included recommendations to strengthen logical and physical controls over control
               systems at a fossil generation facility. TVA management is implementing planned remediation
               actions that are expected to be completed by June 2005.

2004-010P      TVA’s Workers’ Compensation Claims Process
08/11/04       This report contained recommendations that TVA (1) assess the recoverability of the identified
               workers’ compensation overpayments and (2) determine whether additional verification reviews
               of DOL (DOL) workers’ compensation billings would be cost effective. TVA has sought recovery
               of the DOL overpayments, but DOL has not responded. TVA plans to add staff in April 2005 to
               begin tracking overpayments and erroneous payments.

2004-013T      Fossil Plant IT Security
05/20/04       This report included recommendations that TVA management address suggested remediation
               actions to improve the security of a fossil plant’s IT infrastructure. TVA management is
               implementing planned remediation actions that are expected to be completed by
               December 2006.




page 41                                                             October 1, 2004 ~ March 31, 2005
                                                         Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys              12
          Subjects Referred to State/Local Authorities     1


Results

          Subjects Indicted                                3
          Subjects Convicted                               4
          Referrals Declined                               16




* These numbers include task force activities.




TVA Office of the Inspector General                             page 42
Appendix 6



Unresolved Audit Reports
Listed below is one audit report which we issued before this reporting period began and for which no management
decisions were made by March 31, 2005. We expect to report the management decision in our next semiannual report.

DATE                                                             WHY MANAGEMENT DECISION
ISSUED                 REPORT TITLE                                 HAS NOT BEEN MADE

09/27/04           Bechtel Power Corporation         TVA management is reviewing the questioned costs to
                                                     determine which costs it agrees should be disallowed. TVA
                                                     plans to have this completed in April 2005.




page 43                                                                  October 1, 2004 ~ March 31, 2005
                                                                                               Highlights



                                               MAR 31,         SEPT 30,    MAR 31,   SEPT 30,      MAR 31,
                                                2005             2004       2004       2003         2003


ANNUAL BUDGET (In Millions of Dollars)           $9.1            $8.8        $8.8      $8.5          $8.5
CURRENT STAFFING                                  80              82          78        78            84

AUDITS

AUDITS IN PROGRESS
Carried Forward                                    28             29          37        38            35*
Started                                            35             38          36        41            41
Canceled                                            (2)            (5)         (5)       (8)           (4)
Completed                                         (31)           (34)        (39)      (34)          (34)
In Progress at End of Reporting Period             30             28          29        37            38

AUDIT RESULTS (Thousands)
Questioned Costs                               $8,859          $1,763     $14,127    $1,908        $1,125
Disallowed by TVA                               7,586           2,948      10,453       137           989
Recovered by TVA                                2,312           1,113         697     3,499           221

Funds to Be Put to Better Use             $24,306              $1,471     $11,904    $6,951       $34,755
Agreed to by TVA                           20,181               7,021       5,800     6,551        37,969
Realized by TVA                             7,886               7,196      11,708         0        38,172

OTHER AUDIT-RELATED PROJECTS
Completed                                           3               8         30         15           36
Cost Savings Identified/Realized (Thousands)       $0              $0          0          0            0

I N V E S T I G AT I O N S * *

INVESTIGATION CASELOAD
Opened                                                84         118         162       100            87
Closed                                               103         163          76        92            75
In Progress at End of Reporting Period               157         176         221       135           127

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                         $216.3       $460       $3,412     $100          $879
Savings                                           1,581.5        447.7        863      875           366
Fines/Penalties                                        .4        451.6         10      421            56

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                              11           14          8         21           15
Actions Taken (# of Subjects)                         16           30         75         24           16
Counseling/Management
   Techniques Employed (# of Cases)                     12         16         13         21           16

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                                  12       25         17         63           12
Indicted                                                   3        9          3          4            6
Convicted                                                  4        3          3         10            4

INSPECTIONS
Completed                                             14           8
Cost Savings Identified/Realized (Thousands)          $0        $226

 * Adjusted from previous reporting period.
** These numbers include task force activities.




TVA Office of the Inspector General                                                                  page 44
                     Tennessee Valley Authority
                    Office of the Inspector General



Help Track Down Fraud,
Waste, and Abuse at TVA




     Contact the OIG Hotline
        1-800-323-3835
 To report:
 •   Contract or computer fraud          •    Theft or misuse of TVA
 •   Computer misuse or crimes                property
 •   False statements or false           •    Management reprisal
     claims                              •    Workers’ compensation fraud
 •   Irregularities in financial         •    Bribery, kickbacks, or
     reporting                                gratuities
 •   Conflicts of interest and other     •    Health care fraud
     ethics violations                   •    Environmental, health, and
 •   Travel fraud                             safety violations


           For additional information, see our Web site at oig.tva.gov
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
